      Department of Homeland Security




             Independent Review of the Federal Law 

            Enforcement Training Center’s Reporting 

               of FY 2012 Drug Control Obligations 





OIG-13-28                                       January 2013

                            OHICE Of INSPECTOR GEJ\ERAL




MEM ORANDUM FOR:                Co nn ie L. ~atric k
                                Directo r
                                Federal l aw Enforcement Tra ining Center

FROM :                          Anne L Rlt:harm     4"VU.lU.....4
                                A»lsran t In 5pec::tor GenNal for Audits

SUBJ ECT:                       l~tldeM RevllfW "f the ~I Law En/orcement
                                T' o''''''9 CeMe"s Reporting oj FY 2012 Druo Control
                                ObJiga/ron$

Attac lled l or your inlormatkm Is our flnil l repel rt, lmiepemient RPlIiP'N a/ rh t Fttnral l.ow
Enforcem ent Training Center's ReportIng oj fY 2012 Drug Control ObligatIons. F~era l
l aw Enforce mtnt Training Ce nter'~ managem ent pre pared the Table of ~rior Vear Drug
Contro l Obligations and the accompa nying Unreaso nable Burd en St atem ent to comp ly
wit h the req uirements ofthe Office of Nationa l Dru E Cont rol Policy Circu lar, Dl ug
Coo/ral Accounting, dated May 1, 2007.

We con tracted w ith till" independ ent pu blic accounting finn KPMG lJ.p to pe< form the
review. KPMG UP is responsible !orthe arurched indep!'!ndent accountant$' r!'!port.
dated January 18, lOll, ilnd the conc.luslons expre~sed in it. W'" do nOt u pr-ess an
opinion on thr! Table of Prior Yeil' DlUS COfIll ol ObligatioJl!i or t he OKtompanying
Unr eilsonable Burdl' n Statement . This report contilins no reo;ommendiltions.

Consist ent with our res pons ibility under the Inspecro'~nerol Act, we are pro-.iding
copi es of oo r report to appropriate congressiona l committees with oversight and
appropriation reSpelnsib ility over t he Depa rtment of Homelan d Sec urity. We wi ll pon
t he re pel rt on our website for pu blic dissemi nation.

~l ea 5e
       ca ll me with any questions, or yCoUr naff may contact M arl< Be ll. Deputv Ass l~ta nt
Inspector Gen era l for Audits, at (202) 254·4100.

AttilChment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                    Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of Prior Year Drug Control Obligations of the U.S.
Department of Homeland Security’s (DHS) Federal Law Enforcement Training Center (FLETC) for the
year ended September 30, 2012. We have also reviewed the accompanying statement that full compliance
with the Office of National Drug Control Policy (ONDCP) Circular, Drug Control Accounting, dated
May 1, 2007 (the Circular) would constitute an unreasonable burden (Unreasonable Burden Statement).
FLETC’s management is responsible for the preparation of the Table of Prior Year Drug Control
Obligations and the Unreasonable Burden Statement (collectively the Alternative Report).

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Alternative Report.
Accordingly, we do not express such an opinion.

Management of FLETC prepared the Alternative Report to comply with the requirements of the Circular.

Based on our review, nothing came to our attention that caused us to believe that the Table of Prior Year
Drug Control Obligations and Unreasonable Burden Statement for the year ended September 30, 2012, are
not presented, in all material respects, in conformity with the Circular. The information included in the
ONDCP Performance Summary Report section is presented for the purposes of additional analysis and is
not a required part of the Alternative Report. Such information has not been subjected to the review
procedures applied in the review of the Alternative Report, and accordingly, we do not provide any
assurance on the ONDCP Performance Summary Report section.

This report is intended solely for the information and use of the management of DHS and FLETC, the
DHS Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be
used by anyone other than these specified parties.




January 18, 2013





                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
   U.S. DEPARTMENT OF HOMELAND SECURITY
                                                                                                    2012
   Federal Law Enforcement T raining Center (FLETC)

                              Prior Year Drug Control Obligations




Drug Resources by Function
   Investigations                                                                    $46. 160       $45.672
  State & Local Assistance                                                            $1.466         $1 .304
   International
                                  _=--------------                                    $0.317          $0.150
                                                                                  ."l~!fiJ!=-11<'e'I]-,"I".:m:m




      .
Drug Resources by Decis ion Un it
  Salaries & Ex penses                                                               $47.943        $47 .126
 ,.       ~";;   ,   .   ~~                                                          ,<   "          .'

Drug Resources Personn el Summary
  Total FTEs (direct only)                                                                224             224

Drug Resources as a Percent of Budget
  Total Agency Budget (in billions)                                              $    0.270     $     0.270
  Druq Resources Percentaqe                                                           17.8%            17.4%




The FLETC has less than $50 million in drug-related obligations per year. As such , full compliance with
the ONDCP Circular: Drug Control Accounting , would constitute an unreasonable reporting burden .




              ~~,~~
              Chief Financial Officer


The Drug Resources as a Percent of Budget is computed as follows:

Obligations              FY                   Budget Authority
 $47,126                 FY2012               $270,109              47 ,126/270,109 =                  17.4%
 $47 ,943                FY2011               $269,523              47 ,943/269,523 =                  17.8%
       U.S. DEPARTMENT OF HOMELAND SECURITY
                                                                                                       2012
       Federal Law Enforcement Training Center (FLETC)

                     ONDCP PERFORMANCE SUMMARY REPORT
                                           FY 2012
Introduction
The Federal Law Enforcement Training Center (FLETC) is an interagency law enforcement training facility that
serves a leadership role as the Federal Government's principal provider of world-class, interagency law
enforcement training to more than 90 Federal Partner Organizations, as well as training and technical
assistance to state, local, tribal, territorial and international law enforcement entities. The FLETC provides
premium training programs in support of drug enforcement activities, primarily in advanced programs that
teach and reinforce law enforcement skills of investigation.

Performance Measures
The Office of National Drug Control Policy (ONDCP) Director’s August 25, 2011 memo to the Secretary of the
Department of Homeland Security requested FLETC develop a specific counterdrug performance measure to
support the President’s National Drug Control Strategy. In response, the following Statement 34, “The
FLETC’s counterdrug-related training (i.e., Drug Recognition, Clandestine Laboratory Safety Awareness,
Marijuana Cultivation Investigations, etc.) meets my agency’s identified training needs,” was added to the FY
2012 Partner Organization Satisfaction Survey. The data collected for this new statement will be used to
support the President's National Drug Control Strategy by assessing Partner Organization satisfaction with
counterdrug-related training the FLETC provides to the Partner Organization's law enforcement officers and
agents. FLETC Partner Organizations are Federal agencies involved in the enforcement of Federal law that
have signed a Memorandum of Understanding (MOU) with FLETC to participate in consolidated training and
be given priority scheduling.



Performance Measure                                                                            2011    2012


Outcome: Percent of Partner Organizations that agree the Federal Law         Target      N/A            81%
Enforcement Training Center counterdrug-related training (i.e., Drug
Recognition, Clandestine Laboratory Safety Awareness, Marijuana
Cultivation Investigations, etc.) meets identified training needs.           Actual      N/A            84%



Prior to establishing a specific counterdrug performance measure, FLETC utilized the below performance
measure, which reflects the satisfaction of Partner Organizations with the training provided by FLETC to their
officers/agents to perform their law enforcement duties such as the prevention of the introduction of high-
consequence weapons of mass destruction, terrorism, and other criminal activity against the U.S. and our
citizens. The results of the measure provide on-going opportunities for improvements that are incorporated
into FLETC training curricula, processes and procedures.


Performance Measure                                                                            2011    2012

Outcome: Percent of Partner Organizations satisfied with the training        Target            91%      N/A
provided by the Federal Law Enforcement Training Center.
                                                                             Actual            97%      N/A
1. Performance reporting systems are appropriate and applied

The performance data is collected from the FLETC Partner Organization Satisfaction Survey administered via
Vovici, a web-based survey program which tabulates and calculates the survey results using a modified six-
point Likert rating scale, which is named after psychologist Rensis Likert and is commonly used to measure
opinions or attitudes. The PO representative from each Partner Organization provides responses to the
survey through Vovici and saves the responses online when the survey is completed. FLETC program
personnel import the survey data as saved by survey respondents from Vovici into the Statistical Package for
the Social Sciences, a software package used for statistical data analysis, to generate descriptive statistics
and then into MS Excel to generate data charts and tables. The percent is calculated as the total number of
Partner Organizations that responded "Strongly Agree" or "Agree" to the above statement divided by the
number of Partner Organizations that responded to the above statement. Partner Organizations that respond
"Not Applicable" to the above statement are excluded from the calculations of this measure.

2. Explanations for not meeting performance targets are reasonable
The performance targets were achieved.

3. Methodology to establish performance targets is reasonable and applied
The FLETC’s ONDCP performance measure was developed and submitted for approval during FY 2012. In
order to establish a performance goal (against which to set a baseline), the FLETC examined its actual and
targeted historical performance previously established training related measures. Additionally, we informally
held discussions with a sampling of Partner Organizations to gauge their satisfaction with FLETC’s drug
control related training to date. When considered as a whole, these factors indicated that 81% was a realistic
target to establish the baseline. As this performance measure matures, the target goals will be evaluated and
adjusted as necessary.

4. Adequate performance measures exist for all significant drug control activities
FLETC has one acceptable ONDCP specific performance measure.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   Federal Law Enforcement Training Center

   Director
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-28

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
